                              NATIONAL SCIENCE FOUNDATION
                                    4201 Wilson Boulevard
                                  ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM


Date:          January 14, 2010

To:            Mary F. Santonastasso
               Division Director, Division of Institution and Award Support
               (BFA/DIAS)

               Karen Tiplady
               Division Director, Division of Grants and Agreements (BFA/DGA)

From:          Michael R. Kuklok /s/
               Senior Audit Manager, Office of Inspector General

Subject:       NSF OIG Report Number 10-1-003
               Audit of Effort Reporting System, University of Nevada – Reno

         Attached is the final report prepared by Williams Adley & Company, an independent
public accounting firm, on the audit of the payroll distribution and effort reporting system used
by the University of Nevada – Reno (Reno) to support salary and wages charged to NSF grants.
The University’s comments to the draft report have been summarized after the recommendations
for each audit finding and the auditor’s response has been provided to these comments. The full
text of the Reno’s comments is included as Appendix C to the audit report.

        The audit found that Reno’s payroll distribution and effort reporting system substantially
supports payroll costs charged to NSF awards. However, our review of 30 sampled employees
disclosed that the University’s new web-based effort reporting system did not provide faculty
effort reports that consistently reflected all compensated work activities on an integrated basis as
required by Federal regulations. Furthermore, instances of noncompliance with Federal, NSF, or
University effort reporting requirements were identified including: faculty salaries exceeding
NSF’s two-ninths rule, salary cost transfers processed without proper justification, and costs
charged to NSF grants that did not directly benefit the research project. The instances of
noncompliance and the systemic nature of the control weaknesses identified raises concerns
about the reliability of the remaining $1.7 million of FY 2008 labor charges to NSF grants and
the salary portion of the University’s other $78 million of Federal sponsored awards.
        We consider Reno’s internal control procedural weaknesses identified in the audit
findings to be significant. Accordingly, we request that your office work with the University and
the cognizant audit agency, the Department of Health and Human Services (DHHS), to develop a
written Corrective Action Plan detailing specific actions taken and/or planned to address each
audit recommendation. Milestone dates should be provided for corrective actions not yet
completed.

        To help ensure the recommendations are resolved within six months of audit report
issuance pursuant to Office of Management and Budget Circular A-50, please coordinate the
development of the Corrective Action Plan with our office during the resolution period. Each
audit recommendation should not be closed until NSF, in coordination with DHHS, determines
that Reno has adequately addressed the recommendations and proposed corrective actions have
been satisfactorily implemented. Please note that we have sent a copy of the audit report under
separate cover to Mr. Jon D. Crowder of DHHS-OIG.

OIG Oversight of Audit

       To fulfill our responsibilities under Generally Accepted Government Auditing Standards,
the Office of Inspector General:

   •   Provided a detailed audit program for the agreed-upon procedures review and ensured
       Williams Adley’s approach and planning for the audit was appropriate;

   •   Evaluated the qualifications and independence of the auditors;

   •   Monitored progress of the audit at key points by accompanying Williams Adley’s
       auditors onsite at the grantee;

   •   Coordinated periodic meetings with Williams Adley and OIG management to discuss
       audit progress, findings, and recommendations;

   •   Reviewed the audit report, prepared by Williams Adley, to ensure compliance with
       Generally Accepted Government Auditing Standards and the NSF Audit Program; and

   •   Coordinated issuance of the audit report.

        Williams Adley & Company is responsible for the attached audit report on Reno’s
payroll distribution and effort reporting system and the conclusions expressed in the audit report.
The NSF OIG does not express an opinion on the audit report’s conclusions.




                                                 2
       We appreciate the cooperation that was extended to us during our review. If you have
any questions, please feel free to call me at 703-292-4975 or Joyce Werking at 703-292-8097.

Enclosure

cc:    Gilbert Tran, Technical Manager, Office of Management and Budget
       Alexander Wynnyk, Branch Chief, BFA/DIAS
       Rochelle Ray, Team Leader, BFA/DIAS




                                               3
     

 



        Audit of Effort Reporting and Payroll 

                 Distribution System 


               University of Nevada - Reno
                          Reno, Nevada
               For the Period July 1, 2007 to June 30, 2008



            National Science Foundation 

            Office of Inspector General 

                           January 13, 2010 

                            OIG 10-1-003 




                           Audit Performed by: 

                     Williams Adley & Company, LLP 

          Certified Public Accountants/Management Consultants 

                     1250 H Street, N.W., Suite 1150 

                         Washington, D.C. 20005

    This page intentionally left blank
 




 
                                 EXECUTIVE SUMMARY
        This report provides the results of our audit of the payroll distribution and labor effort
reporting system used by the University of Nevada, Reno (Reno), to validate salaries and wages
charged to National Science Foundation (NSF) grants. During fiscal year (FY) 2008, the
University had total federal grant expenditures of $84.7 million, of which $6.6 million or 8
percent was directly funded by NSF. Approximately $2.2 million was for labor costs directly
charged to NSF awards. This audit is one of a series of Office of Inspector General (OIG)
reviews of the labor effort distribution systems being conducted at NSF’s top-funded universities
to assess the adequacy of internal controls to ensure salary and wage costs claimed on NSF grants
are properly managed, accounted for, and monitored.

        Reno generally has a well established federal grants management program. In recent
years, the University has made significant improvement in its payroll distribution and effort
reporting system by establishing a new web-based effort report system (ERS), issuing new effort
reporting policies and procedures, and hiring a full-time Effort Reporting Specialist. The new
ERS and the additional controls have resulted in timelier certification of effort reports and
essentially eliminated any incidences of missing employee effort reports. Review of $452,985 in
FY 2008 NSF salary charges for 30 sampled employees generally disclosed that such costs were
adequately supported.

         However, the audit disclosed internal control weaknesses Reno needs to correct to ensure
an effective and efficient effort reporting system that is fully compliant with all federal, NSF, and
University requirements. Contrary to federal standards, the University’s new ERS did not
appropriately provide faculty effort reports that consistently reflected all compensated work
activities on an integrated basis. Also, we found instances of noncompliance with NSF and
University effort reporting requirements including: faculty salaries exceeding NSF’s two-ninths
rule, salary cost transfers processed without proper justification, and unallowable costs charged to
NSF grants that did not directly benefit the research project. Specifically, review of $452,985 in
FY 2008 NSF salary charges for 30 sampled employees identified the following exceptions:

    	 Two of eight sampled faculty members improperly charged $27,792 of salaries that
       exceeded NSF’s two-month salary limitation.

    	 Two of the 30 sampled employees had salary cost transfers without adequate explanation
       and justification. Such cost transfers totaling $4,250 were improperly charged to three
       NSF grants within the last month of the award periods.

    	 Three employees charged $5,218 to NSF grants that did not directly benefit the research
       projects.

Furthermore, Reno’s ERS did not properly track and report Principal Investigator (PI) effort
committed on federal grant proposals. Of the eight sampled faculty members reviewed, one
researcher’s effort report did not reflect cost shared effort of $20,360 devoted to two NSF grants.




                                                  i
        As a result, Reno provides less assurance to federal sponsoring agencies that effort reports
are reliable in supporting salaries and wages charged to sponsored projects and documenting the
level of PI effort explicitly committed in grant proposals to accomplish research objectives. The
instances of noncompliance and the systemic nature of the control weaknesses identified raises
concerns about the reliability of the remaining $1.7 million of FY 2008 labor charges to NSF
grants and the salary portion of the University’s other $78 million of federal sponsored awards.

        These weaknesses occurred because prior to establishing its new web-based ERS system
in January 2007, Reno did not place sufficient emphasis on labor effort reporting. While
significant improvements have been made, the audit identified additional control weaknesses in
the new ERS system that need to be addressed. Specifically, the audit found that manual
procedures to remedy compatibility issues between the new ERS and existing Reno grants
management systems resulted in faculty effort reports that did not provide for accurate reporting
of sponsored and all other PI work activities on an integrated basis. In addition, the University
lacked (i) policies implementing NSF’s two-month limitation on faculty salary charges, (ii)
adequate oversight to ensure sufficient justifications for labor cost transfers, and (iii) procedures
to ensure the proper reporting of committed faculty effort on sponsored projects. Also, contrary
to federal standards, Reno had not performed an independent internal evaluation to ensure the
ERS was effective and compliant with OMB, NSF, and University requirements.

        To address these deficiencies, we made recommendations to fully integrate the effort
reporting process, update and revise policies to fully comply with federal and NSF standards,
establish a mandatory training program for all individuals involved in the effort reporting process,
and provide additional oversight of the process. Finally, we recommended that Reno resolve the
$54,154 in questioned salary and associated fringe benefit and indirect costs.

        A draft report requesting comments on the audit findings and recommendations was
issued to Reno. The University generally concurred with the recommendations and in recognition
of the weaknesses identified in the report, has revised or plans to revise certain Reno policies and
procedures to address opportunities for improvement in effort reporting and cost transfers.

       Reno’s responses, once fully implemented, should address the audit recommendations.
NSF should work with the cognizant audit agency and/or Reno to ensure the University develops
an acceptable corrective action plan to resolve each audit recommendation. We have summarized
Reno’s responses and provided our comments after each recommendation in the report. The
University’s complete response to the draft report is included as Appendix C.




                                                   ii
                                                                Table of Contents




Executive Summary........................................................................................................................................i


Introduction


Background ………………………………………………………………………………………………… 1
Audit Objectives, Scope and Methodology ………………………………………………………………... 2


Findings and Recommendations


1. ERS Improvements Needed to Comply with Federal and University Requirements ………….. 5

2. ERS Accountability Required for Uncompensated Faculty Labor Effort ................................. 17 


3. Other Audit Matters …………………………………………………………………………... 20



Appendices


           Appendix A              Schedule of FY 2008 Questioned Salaries and Wages

           Appendix B              Schedule of FY 2008 Faculty Uncompensated Effort Not Properly Reported

           Appendix C              University of Nevada Reno’s Response to Draft Audit Report

ACRONYMS


            ERS                    Maximus Effort Reporting System
            NSF                    National Science Foundation
            NSHE                   Nevada System of Higher Education
            OIG                    Office of Inspector General
            OMB                    U. S. Office of Management and Budget
            OSP                    Office of Sponsored Projects
            PAF                    Payroll Action Form/Personnel Action Form
            PI                     Principal Investigator
            Reno                   University of Nevada - Reno



 
_______________________________________________
                            INTRODUCTION 

________________________________________________________________________

Background

        Approximately one third of the National Science Foundation award funds are provided for
salary and wages, amounting to about $1.3 billion annually at universities. Also, in recent years,
there have been several civil settlements involving overcharges of labor costs to federal grants
amounting to millions of dollars at several major universities, including some funded by NSF.
Because of these legal actions and the material amounts of labor costs paid from NSF awards, the
Office of Inspector General (OIG) is undertaking a series of reviews of the labor effort
distribution systems at NSF’s top-funded universities. The objective is to assess the adequacy of
internal controls to ensure salary and wage costs claimed on NSF grants are properly managed,
accounted for and monitored, and are allowable. This audit, involving the University of Nevada,
Reno (Reno), is one of the planned reviews of such labor effort distribution systems.

        Reno was established in 1874 as the first university in Nevada. The University is one of
several operating campuses within the Nevada System of Higher Education (NSHE) and has over
16,000 students and employees on its 250 acre campus. Reno served the State of Nevada as its
only state-supported institution of higher education for almost 75 years.

        The Office of Sponsored Projects (OSP) serves as the signature authority on behalf of the
Reno campus within the Nevada System of Higher Education. It receives awards issued by NSF
and is the legal fiduciary responsible for the conduct of activities and commitments under the
award. OSP is responsible for Reno management and oversight of federal grant programs.
Primarily, OSP provides pre-award and post-award administrative services for sponsored
programs, develops policies and procedures for federal grants management, and is charged with
implementing appropriate campus training programs. The Controller’s Office is responsible for
the overall internal controls over the University’s financial activities while OSP is responsible for
overseeing the process for compiling, generating, and maintaining effort reports within the
framework of federal regulatory requirements and University policy.

         Senior administrative officials located within each academic department are tasked with
the management and oversight of their sponsored projects to ensure compliance with federal and
University policies and procedures. They typically assist and advise faculty members on federal
grants management and review financial information to ensure that award accounts and budgets
are created accurately in the University’s financial system, award expenditures are monitored on a
monthly basis, and charges to federal awards are appropriate. Principal Investigators (PIs) have
primary responsibility for all aspects of federal grants including approval of all charges and
ensuring that the research is conducted in accordance with the award terms and conditions.




                                                  1
 
                                                   
Objective, Scope and Methodology


        Audit Objectives. Our audit objectives were: (a) to evaluate whether Reno internal
controls are adequate to properly manage, account for, and monitor salary and wage charges to
NSF grants in accordance with OMB and NSF grant requirements and (b) to determine whether
the salaries and wages are allowable, allocable, and reasonable in accordance with federal cost
principles and NSF grant terms and conditions.
        Scope and Methodology. The audit focused on Reno’s effort reporting system and
accordingly reviewed internal controls for ensuring that labor costs charged to NSF (i) were
actually incurred, (ii) benefited NSF awards, (iii) were accurately and timely recorded and
charged to NSF, and (iv) were for allowable and allocable-type activities as required by federal
and NSF requirements. In addition, we evaluated if the level of PI effort pledged in grant
proposal and award documents was actually contributed by the faculty member to accomplish
award objectives.
         To address each of the control objectives, the NSF OIG engaged a statistician to provide
expert advice in selecting a statistical sample of employee salary records for testing. The use of
statistical tools and methodology will enable projecting our audit results to the entire population
of universities to be included in the planned reviews of payroll distribution systems nationwide.
However, due to the small statistical sample size of 30 employees tested, we are not able to make
any projections to the total Reno population of labor costs charged to NSF grants. Specifically,
the FY 2008 salary and wage costs for the 30 sample employees tested amounted to $452,985.
Our statistical sample was derived from a total population of 195 employees, who charged over
$2 million in salaries to NSF grants during FY 2008. This population excluded (a) any employee
with total salary costs of $100 or less and (b) all salary charges for undergraduate students. These
amounts were excluded because of their small dollar value and the difficulty in locating
undergraduate students for personal interviews.

        We compared Reno’s policies and procedures to federal and NSF requirements for
allocating labor costs to federal awards and interviewed Reno personnel to gain an understanding
of the controls in place to ensure salary and wages charged to NSF awards were reasonable and
allowable. For each statistically selected salary record, we obtained the following documentation
to determine whether labor costs Reno charged to NSF awards met the control objectives:

       	 Effort reports documenting 100 percent of each employee’s compensation allocated to
          sponsored and non-sponsored projects for each reporting period.

       	 Appointment letters or other documents supporting the approved annual salary for
          employees.

       	 Reports detailing the actual salary and wages charged to sponsored projects and other
          activities for each employee during each reporting period.

       	 Award documents to determine whether the grant had any terms and conditions that
          would affect allowable labor charges to the award.


                                                 2
 
        To ensure that salary and wage costs charged to NSF awards were incurred and benefited
NSF awards, we corroborated the information on the effort reports by interviewing the 30
sampled employees. We inquired whether (a) the labor charges documented were actually
incurred on projects and activities, (b) the approximate percentage of effort actually worked on
each sponsored project and/or activity was reasonably consistent with NSF labor charges, and (c)
the type of work performed on NSF projects was generally consistent with the scope of the
awards. In addition, we interviewed administrative officials in academic departments of the
sampled employees, as applicable, to determine how they met the federal and University
certification requirement on verifying effort reports to ensure the work was actually performed as
shown on the reports. We also discussed with department administrative officials their
procedures for processing and monitoring employee salary charges to federal grants.
Additionally, we interviewed selected PIs to determine the number of projects and personnel they
were responsible for and their processes for verifying effort reporting.

        To confirm that faculty effort pledged in grant proposals contributed to accomplishing
grant objectives, we reviewed processes for reporting and tracking PI effort and whether the
associated salary costs were properly included in the organized research base for computation of
the University’s indirect cost rate. We reviewed award documents for all federal grants that a
faculty member worked on during FY 2008 to determine the effort pledged on each project and
compared this proposed effort to the approximate percentage of actual effort worked on the
project. In addition, we determined whether and how Reno tracked and documented PI effort on
sponsored projects when no faculty salary support was requested or reimbursed by the federal
government.

        To determine whether labor costs were accurately recorded and charged to NSF, we
compared the amounts in appointment letters or other documentation supporting salaries and
wages paid to the amounts recorded in the Human Resource Management System and Advantage
accounting system for each individual in our selected sample. We recalculated salary and wage
costs charged to NSF projects by using the salary shown on supporting documentation and
apportioning it by the period of time and percent of effort represented on the effort reports. We
also reviewed labor transactions to determine whether Reno followed federal, NSF, and
University requirements on charging labor costs to NSF projects.

        To evaluate whether Reno officials certified effort reports in a timely manner, we
compared the date the effort reports were available for pre-review to the date the reports were
certified. Timeliness was tested against Reno’s internal policy requiring that effort reports be
completed within 30 days after pre-review by each departmental coordinator for each monthly,
semi-annual, and faculty overload report.

        Finally, we reviewed prior audit reports of Reno’s federal grants management program
performed by OMB Circular A-133 auditors and the University’s internal auditors to determine if
there were any audit findings and recommendations on labor effort reporting. Specifically, we
interviewed selected internal audit staff and reviewed the working papers, as needed, to gain an
understanding of the scope and procedures used in any audits of Reno’s payroll distribution
reporting system or University management of labor costs charged to federal projects. We
contacted Reno’s A-133 auditors to discuss their overall audit scope and procedures used for



                                                 3
 
reviewing salaries and wages charged to federal awards and their review of the labor effort
reporting system. Accordingly, we reviewed the most current A-133 audit working papers
available to ascertain the actual audit scope and procedures used by the auditors in order to (i)
preclude any duplicative audit work and (ii) to determine the specific work performed on the
labor effort reporting system.

         Onsite audit work at the Reno campus was performed during two-week periods in
February/March and April 2009. The remainder of the audit work was completed through phone
interviews, emails, and documentation requests through July 2009. We were engaged to perform
the above audit objectives by the NSF OIG. The performance audit was conducted in accordance
with the Comptroller General’s Government Auditing Standards and accordingly included such
tests of accounting records and other auditing procedures, as we considered necessary, to fully
address the audit objectives. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions.




                                                  4
 
________________________________________________________
                                                  FINDINGS AND RECOMMENDATIONS 

_________________________________________________________________________________________


Finding 1 - ERS Improvements Needed to Comply with Federal and University
            Requirements

Federal Requirements for Labor Effort Reporting

         OMB Circular A-21, Cost Principles for Educational Institutions, requires certification of
labor effort contributed by employees on federal awards to reasonably reflect the actual labor
effort contributed by the employee to meet award objectives. The effort reporting system must
provide for after-the-fact confirmation of employee activity by the employee conducting the work
being reported or by an official that is in a position to know whether the work was performed.
The system must “encompass both sponsored and all other activities on an integrated basis” to
produce an equitable distribution of charges for employee compensated activities. The Circular
also requires universities to provide for independent internal evaluations to ensure the effort
reporting system’s effectiveness and compliance with federal standards. As such, “the recipient
institution is responsible for ensuring that costs charged to a sponsored agreement are allowable,
allocable, and reasonable under these cost principles” and “must provide for adequate
documentation to support costs charged to sponsored agreements.” 1 In addition, NSF policy
limits its funding of faculty salary to two-ninths of their academic salary.

         Consistent with the Circular A-21 requirement for “sound business management
practices,” OMB Circular A-110 2 requires entities receiving federal awards to establish and
maintain internal controls that are designed to reasonably ensure compliance with federal laws,
regulations, and program compliance. However, although Reno’s effort reporting system
substantially supports payroll costs charged to NSF grants, we found internal control
improvements are needed in certain effort reporting areas to ensure full compliance with federal,
NSF, and University requirements. Specifically, review of 30 sampled employees, whose 77
labor effort reports supported $452,985 in FY 2008 NSF salary charges, disclosed that (i) effort
reports for faculty salary charges to NSF grants did not always reflect all compensated work
activities on an integrated basis as required by federal standards, (ii) faculty salaries exceeded
NSF’s two-ninths rule, and (iii) salary cost transfers were processed without proper justification.
In addition, Reno did not ensure that all NSF salary charges directly benefited the research project
or were correctly charged.



                                                            
1
          Paragraphs C.4.d.(1) and A.2.e., respectively, of OMB Circular A-21, Cost Principles for Educational
Institutions.
2
          Section .21 of OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organization, requires that a grantee’s financial
management system provide for “Effective control over and accountability for all funds, property, and assets. . .
written procedures for determining the reasonableness, allocability and allowability of costs in accordance with the
provisions of the applicable cost principles and terms and conditions of the award.”


                                                                5
 
        As a result, we have questioned $37,260 in salary and tuition fees and $16,894 in
associated fringe benefits and indirect costs. Further, NSF has less assurance that Reno effort
reports are fully reliable in reasonably supporting salary and wages charged to its sponsored
projects. The systemic nature of these control weaknesses raises concerns about the reliability of
the remaining $1.7 million of FY 2008 labor charges to NSF grants and the salary portion of the
University’s other $78 million of federal sponsored awards.

Reno’s Effort Reporting System

        Pursuant to the OMB requirements, Reno implemented a web-based Effort Report System
(ERS) in January 2007, with the first reports published in the summer of 2007. Reno has
established monthly effort reports for classified employees, two semi-annual effort reports for
salaried employees, and two additional effort reports for faculty overload salary charges to
sponsored projects during non-contract days. The Office of Sponsored Programs (OSP) is
primarily responsible for proper ERS administration.

        Reno utilizes a multi-purpose Payroll Action Form (PAF) to allocate an individual’s salary
to specific sponsored projects based on an estimated level of effort to be devoted to the research
project. Each Academic Department is responsible for completing and executing PAFs for its
employees and sending the forms through the department’s approval process. The PAF must be
entered into the HR System prior to generating payroll. The OSP Effort Reporting Specialist
obtains the payroll upload, initiates the process to generate ERS reports and issues an email
notification to each Department’s pre-reviewer when effort reports are available for review.
Reno’s effort reporting policy states that generally “. . . employees who work on a sponsored
project are expected to certify his/her own effort report.” The principal investigators (PI) are
primarily responsible for ensuring that all individuals who have worked on a project complete
their effort reports in a timely and accurate manner. The ERS policy requires that effort
certification occur within 30 days after the pre-reviewer receives initial notification of the effort
reporting cycle. If effort reports are not certified within this timeframe and the certifying official
is not responsive to reminder notices during the next 30 days, the responsible PI is placed on an
OSP suspension list and the sponsored project account is disabled for any additional charges.
        Overload PAFs are prepared for faculty members to charge salary to sponsored projects
during non-contract periods over the summer and winter/spring breaks. Reno policy limits such
faculty overload compensation to a maximum of 50 percent of an individual’s academic base
salary. Accordingly, the University has established an Overload PAF Access Database to track
and monitor compliance with the 50-percent maximum limitation. The OSP Effort Reporting
Specialist uses this database to identify late faculty salary charges requiring manual certification
by retroactive effort reports. In such cases, hard copy retroactive effort reports are prepared and
distributed to the PI for review and certification and returned to OSP.




                                                  6
 
Effort Reporting System Does Not Provide Integrated Reporting of Faculty Overload Salary
Charges to Sponsored Projects

        OMB regulations require a payroll distribution system to “reasonably reflect the activity
for which the employee is compensated by the institution; and encompass both sponsored and all
other activities on an integrated basis . . ." However, Reno's ERS does not consistently produce
faculty overload effort reports that accurately include all the researcher's compensated work
activity during the reporting periods. Specifically, when the University is required to manually
issue Retroactive Effort Reports to certify late faculty overload salary charged to federal grants,
such reports do not provide proper "integrated" reporting of all employee work effort. This
occurs because only the portion of salaries paid late to the researcher is reported and not the total
compensation for all employee work activities on an integrated basis as required by OMB
standards.

         For example, if a PI equally splits his summer work effort between a NSF and NASA
grant, the individual's effort report should reflect 50 percent effort on each award. However, if
the individual submits a late PAF for the NSF salary after the closing date for the summer faculty
overload reporting period, the PI will incorrectly have both a web-based ERS report reflecting
100 percent effort on the NASA grant and a manual Retroactive Effort Report with 100 percent
effort on the NSF grant.

        Late faculty submission of overload PAFs to charge salaries to federal sponsored projects
contribute to the need to issue manual retroactive effort reports, which result in noncompliant
reporting. Specifically, review of eight PIs in the 30 sampled employees, with total FY 2008
NSF salary costs of $126,263, disclosed that four PIs submitted 15 overload PAFs retroactively to
charge over 30 percent of such salaries to NSF grants instead of allocating such salaries on a
prospective basis. Such overload PAFs were submitted a few days to six months after the PIs
actually performed the work on the NSF grants. While most of the overload PAFs were
processed prior to the required ERS reporting date, $9,939 in salary for one PI was reported in the
wrong effort reporting period due to the late submission. Thus, the subject PI's salary charges
were not accurately reported and certified in the proper period when the work on the NSF grant
was actually performed.

        Such a substantial percentage of faculty overload salaries charged to NSF grants on a
retroactive basis increases the risk of error that such costs are not properly charged to federal
sponsored projects when the work was actually performed and result in Retroactive Effort Reports
that are not compliant with federal standards. Our analysis of the Overload PAF Access Database
disclosed that about five percent of total faculty salaries charged to all federal grants for the
summer 2008 ERS period required manual certification by retroactive effort reports.




                                                  7
 
Faculty Salary Charges Exceed NSF’s Two-Month Limitation

         Reno allowed faculty to charge salary to NSF grants in excess of NSF limitations. This
limitation, which includes salary funded from all NSF grants, is known as the NSF’s two-ninths
rule 3 and limits faculty compensation to no more than two months of a PI's academic base salary.
However, two of eight faculty members sampled, with total FY 2008 NSF salary charges of
$126,263, exceeded NSF’s salary limitations. As a result, NSF was erroneously charged $27,792
in salaries and $12,342 in related fringe benefits and indirect costs. Specific details of the salary
overcharges follow:

       	 A PI worked on one NSF grant, two NSF pass-through grants, and one Reno-funded
          research project during FY 2008 and charged $68,630 in total overload salaries. Of this
          amount, $55,693 was charged to the three NSF funded awards, which exceeded two-ninths
          of the faculty member’s academic base salary by $19,425.

       	 Another PI similarly worked on two NSF grants, one NSF pass-through grant, and one
          private-funded award and received total FY 2008 overload salary of $40,762. Of this
          amount, $29,079 was charged to the NSF funded awards, which exceeded the two-month
          limitation by $8,367.

        The total excess salaries charged to NSF grants accounted for about 22 percent of the
$126,263 in FY 2008 faculty salaries we reviewed from total faculty salaries of $831,012. Thus,
Reno has less assurance that the remaining FY 2008 faculty salaries of $704,749 charged to NSF
grants are not similarly at risk for non-compliance with the salary limitations.

Cost Transfer Justifications Need Improvement

        Although Reno’s University Administrative Manual provides general guidelines for when
cost transfers “may” be appropriate, it does not establish specific procedures for documenting the
reasons and/or justifications for cost transfers. However, the University’s Sponsored Projects
Manual does require that all cost transfers have documented justification. Specifically, Paragraph
11.4 states:

              “The transfer of expenses must be supported by documentation that explains
              how the error occurred. Extensive supporting documentation must be
              provided for transfers older than 90 days, or occurring during the last month
              of an award, or after the award has expired.”

        Our review of seven salary cost transfers, totaling $8,616 for four of the 30 sampled
employees, found inadequate explanation documenting the need to transfer the wages between
different funding sources for two of the four individuals. Of greater concern was the timing of the
                                                            
3
         Paragraph V.B.1.a.(ii)(b) of NSF’s Award and Administration Guide states that ". . . NSF policy on funding
of summer salaries (known as NSF's two-ninths rule) remains unchanged: proposal budgets submitted should not
request, and NSF-approved budgets will not include, funding for an individual investigator which exceeds two-ninths
of the academic year salary. This limit includes summer salary received from all NSF-funded grants."


                                                               8
 
transfers because five of the seven cost transfers occurred within the last month of the NSF award
period and totaled $4,250. As such, these costs are being questioned due to the lack of adequate
justification pursuant to the University’s policy. The following examples illustrate these
weaknesses:

       	 A graduate student was working both as a Reno teaching and research assistant in FY
          2008. Her total NSF salary charges of $3,375 on two grants resulted from cost transfers
          from other University non-sponsored accounts. These transfers were all processed during
          the last month of each NSF grant, thus requiring extensive explanation pursuant to
          established Reno policy. However the justifications only stated the labor costs were being
          “recharge[d] to correct account.” 4

       	 Another graduate student worked on two sponsored projects with related research
          objectives, of which one was funded by NSF. Reno charged the student’s salary to the
          NSF grant from September through December 2007 until the privately-funded grant was
          received, at which time, his salary charges were allocated to the new project. However,
          during the last month of the NSF grant in March 2008, Reno transferred $875 of the
          student’s January 2008 salary to the NSF project without sufficient detailed explanation.
          The justification only stated that the transfer was to account for a “transitional change”
          from one project to another and the change reflected the student’s actual effort.

        Furthermore, the OSP Effort Reporting Specialist, responsible for reviewing all labor cost
transfers, agreed that most justifications only provide minimal explanation and could be
improved. Because the ERS is not integrated with the University's grants accounting system, the
Specialist is tasked with ensuring that cost transfer documentation is manually prepared,
approved, and posted in the grants accounting system to match any ERS revisions made by
department pre-reviewers or certifiers during the web-based review and approval process. The
OSP Effort Reporting Specialist manually tracks and validates that such labor cost transfers are
properly processed within 30 days as required by ERS policy. However, she stated that her role is
only to ensure that the cost transfers are properly posted to the grants accounting system, not to
evaluate the adequacy of the justifications provided for transferring the costs.

       The absence of adequate explanation for one half of the cost transfers we reviewed for our
sampled employees creates an environment in which inaccurate or inappropriate costs could be
charged to federal projects for the purpose of utilizing unexpended grant balances. Therefore,
given the lack of the overall adequacy of cost transfer justifications, NSF has less assurance that
the remaining FY 2008 labor cost transfers into and out of NSF grants, totaling $70,866, were
compliant with the federal and University’s policy for proper supporting documentation for
sponsored project charges.




                                                            
4
        While the graduate student certified her own effort reports, she stated that was she was not aware of the
name of the six research projects on which she had effort reported or the name of the responsible PIs.



                                                               9
 
Salary Charges Not Directly Benefiting NSF Projects
        Reno incorrectly charged $5,218 in salary and tuition fees to NSF grants that did not
benefit the research projects. These charges included (i) two of 14 graduate students reviewed
that inappropriately charged $1,468 of tuition remission costs to NSF projects on which the
individuals had not worked and (ii) a part-time employee that improperly charged $3,750 of full-
time salary. A detailed description of these charges follows:

       	 Tuition remission costs: One graduate student charged $1,016 of tuition assistance for
          an entire semester to an NSF grant to which there were no corresponding salary
          charges. Another graduate student disproportionately charged an NSF grant $452 for
          tuition assistance not corresponding to salary charges made to the project during the
          same period.

       	 Part-time employee: A temporary faculty researcher charged full-time salary from
          July to September 2007 to an NSF grant even though her work schedule had been
          reduced to 18 hours per week during the time period. While the researcher's monthly
          full-time salary was correctly reduced in October 2007, consistent with her reduced
          work schedule, no prior period adjustment was made to reimburse the NSF grant for
          prior salary overcharges totaling $3,750.


Effort Reporting System May Produce Unreliable Effort Reports and Excess Labor Charges

        The internal control weaknesses and instances of noncompliance with federal, NSF, and
University policy and procedures lessen the assurance that Reno effort reports fully support the
$452,985 of sampled NSF salary charges reviewed. More significantly, the nature of these
control weaknesses raises further concerns about the adequacy of support for the remaining $1.7
million of FY 2008 labor charges to NSF grants, as well as the salary portion of Reno’s other $78
million of federal awards. Further, Reno's lack of policies and procedures on NSF's
two-ninths rule for faculty compensation and proper oversight of cost transfers and graduate
student tuition charges allowed it to overcharge NSF $37,260 in grant costs and $16,894 in
associated fringe benefits and indirect costs (see Appendix A for chart of questioned costs).


Factors Contributing to Effort Reporting Weaknesses
        These weaknesses occurred because prior to establishing its new web-based ERS system
in January 2007, Reno did not place sufficient emphasis on labor effort reporting. While
significant improvements have been made, the audit identified additional control weaknesses in
the University's new ERS process that need to be addressed. Specifically, the audit found that (i)
effort reporting policies, procedures, and implementing guidance were not always clear and
comprehensive; (ii) formal grants management training was not provided to all personnel with
effort reporting responsibilities; and (iii) a formal oversight and monitoring program had not been
established.




                                                10
 
         Lack of Integrated Reporting of Faculty Overload Salaries. Reno has not established
adequate ERS policy and procedures to ensure that faculty overload salaries charged to federal
grants are reported on an integrated basis as required by OMB standards. This occurred because
sufficient manual procedures have not been established to remediate compatibility issues between
its new web-based ERS and the University's payroll, accounting, and human resource
management system. Because its ERS policy and procedures did not establish
(i) clear requirements for submitting Overload PAFs prospectively and (ii) clear cut-off dates for
each Faculty Overload effort reporting period, late PAFs submitted after the close of a reporting
period resulted in a manual process to issue retroactive effort reports. Further, current Reno
procedures did not properly require, when such retroactive effort reports were issued, that the
prior web-based ERS reports be withdrawn and all compensated work activities for the faculty
members for the entire reporting period be captured and reflected on the retroactive effort reports.
        Specifically, because ERS procedures only required Overload PAFs to be submitted in a
"timely manner" without specific due dates, our discussions with PIs and other cognizant grants
management personnel found varying interpretations of when the PAFs were required to be
submitted. Some officials stated that the Overload PAFs were required to be submitted
prospectively for all PI salaries charged to federal projects, while others stated that PAFs should
be submitted after the work was completed. Further, additional confusion was created because
the dates delineated in the various ERS policies and forms used for capturing and reporting
faculty overload compensation were not consistent. For example, even though the OSP Effort
Reporting Specialist utilized the end of April as the ERS cut-off date for publishing the
Winter/Spring Faculty Overload Reports, the University's written policies state that May is the
cut-off date. 5 This inconsistency allowed Faculty Overload PAFs to be submitted the month after
the ERS reports were published.
        Furthermore, the manual processes required to mitigate the ERS compatibility issues with
the University's existing grants management systems, which provide source information for effort
reporting, were not only costly due to the intensive work effort required, but also subject to
human error associated with accurately completing such manual tasks. In addition to the issuance
of retroactive effort reports, other manual procedures included (i) posting of faculty overload
salary charges for federal grants to the Overload PAF Access Database and (ii) preparing and
processing documentation to ensure that all cost transfers made during the web-based ERS
certification process are properly posted to the grants accounting system. Officials agreed that the
manual ERS procedures are not efficient and stated that the University has recognized that a new
comprehensive grants management system is needed and will be pursued as funding becomes
available.  
        NSF’s Two-ninths Rule. Reno has not established a policy that explains and implements
NSF’s two-ninths limitation on faculty salary for periods outside the academic year. In fact,
interviews with cognizant grants management officials disclosed that the University appeared to
be unaware of this NSF requirement. In addition, confusion could have been created by the fact
that Reno policy allowed PIs to receive additional overload compensation up to fifty percent of
                                                            
5
         Paragraph VII(s)(ii), Deadlines to File Overload PAFs, of Reno’s Effort Reporting Policy states that
“B-Faculty working during their non-contract days in December, January, and Spring Break must have a PAF for this
period through the financial system by HR’s May cut off date to ensure that a payroll transaction is processed for the
May payroll.”


                                                               11
 
their annual base salary for work performed during non-contract days over the winter, spring, and
summer breaks. Thus, PIs and grants management personnel at the Departments and OSP could
have easily overlooked any sponsoring agency requirements based on the University’s own
unique faculty salary limitation rule.
        Cost Transfer Documentation Requirements. While we found that both the OSP Effort
Reporting Specialist and its Post-Award Group reviewed labor cost transfers; neither office was
tasked with the responsibility for reviewing the adequacy of the justifications. Furthermore,
current Reno cost transfer policies do not properly require additional senior management review
and approval for cost transfers made during the last 45 days of a sponsored project. Reno policies
recognize that such transfers are highly suspect; however, established procedures do not require
that such cost transfers be reviewed and approved by both the applicable Academic Chair and
Dean. Such lack of controls resulted in the improper charging for one-half of the total cost
transfers we reviewed for the 30 sampled employees during the last month of the NSF grants
without detailed explanation as required by Reno policy.
        Tuition Remission Costs. Reno has not established sufficient procedures to ensure that
graduate student tuition remission costs are proportionately charged to research projects directly
benefiting from their actual work activities. Although the charging of such tuition costs has been
recently centralized in the Office of Graduate Studies due to identified past weaknesses, there is
not an established Reno policy or procedure requiring the proportionate re-allocation of tuition
costs and associated fees if there are subsequent changes to a student's work activities. According
to the Office of Graduate Studies, the total semester tuition costs and fees are charged to the
designated sponsored project at the beginning of each academic semester based on the
information provided on the graduate student's PAF. If a subsequent PAF is later submitted to
revise the student's salary allocation to other sponsored projects, a change in the tuition and fees
previously charged to other project accounts are only made if specifically requested by the
academic departments.

        Employee Training for Key Official Not Mandatory. Although the University’s Effort
Reporting Policy stipulated that “administrative units should ensure that employees receive the
appropriate training for their specific role in the Effort Report System,” 6 employee participation
in ERS training remained voluntary. For example, 21 of the 30 sampled employees interviewed
stated they did not recall receiving effort report training. Furthermore, none of the 58 scheduled
ERS training sessions offered during campus implementation of the new web-based ERS were
directed at graduate research assistants, even though established Reno policy assigns primary
responsibility for certifying effort reports to the employees themselves. In particular, interviews
with graduate students disclosed a lack of understanding of the effort reporting process in a
number of instances; yet the individuals certified their effort reports anyway. For example, one
graduate student who certified her own effort reports stated that she was not aware of the specific
names of the six sponsored research projects from which her salary had been charged or the
names of the responsible PIs. Nevertheless, she certified her effort reports, which included
$3,375 charged to two NSF grants.



                                                            
6
              From paragraph II, Policy Statement, of Reno’s Effort Reporting Policy.


                                                               12
 
         In addition, there was no policy requiring administrative units to ensure employees
received appropriate effort reporting training. Such responsibility should likely be assigned to a
senior level management official such as the Dean or the Chair of each Academic Department.
Senior officials typically have the leverage needed to ensure such training is taken by all
responsible personnel.
        Independent Internal Evaluations. Reno has not established adequate policy and
procedures for a periodic and systematic review of its effort reporting system as mandated by
OMB Circular A-21. As such, the University had never conducted a comprehensive evaluation of
the University's effort reporting process to ensure full compliance with federal requirements and
an effective and efficient system.

        The Campus Internal Audit Department did perform a review of the ERS and issued a
report on December 24, 2008. However, responsible officials stated that the review was primarily
directed at evaluating if the new web-based ERS was operating as intended and the purpose of the
review was not intended to be a comprehensive evaluation fulfilling the OMB-required review of
the system’s effectiveness and compliance with federal requirements. Reno audit officials stated
that using the results of prior NSF OIG labor effort audit reports, the ERS review was only
designed to evaluate if the University had any of the common control weaknesses which had been
reported at other universities. Accordingly, the review report recommended that (i) a more
detailed description be developed for suitable means of verification, (ii) ERS training be made
mandatory for all cognizant Reno personnel, (iii) detailed ERS operating procedures be
established for the OSP labor effort specialists, and (iv) a formal Reno framework be established
for the OMB-mandated evaluation of the system on a periodic basis. OSP officials stated that
they generally agreed with the Internal Audit recommendations, but were awaiting the results of
our audit to develop and implement corrective action to address all effort reporting
recommendations on a comprehensive basis.

        Reno is certainly to be commended for performing a review of its new ERS soon after
implementation and making appropriate recommendations for improvement. However, because
the Campus Internal Audit Department was informally established within the Office of Business
and Finance, it does not have a mission statement, a charter, or by-laws to guide its operations or
establish its authority within the University's organizational structure. As such, the Department
does not have a formal audit tracking and follow-up system to ensure effective corrective action
plans are developed to implement report recommendations. The lack of formal University
backing for the Internal Audit Department’s function undermines the important oversight and
monitoring role that the Department plays in the University’s system of internal controls to ensure
compliance with both federal and Reno grant requirements. This is particularly important given
that Reno had FY 2008 federal grant expenditures totaling almost $85 million.


Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the Director
of the Division of Institution and Award Support, coordinate with the cognizant audit agency, as
needed, to implement the following recommendations:



                                                 13
 
1.1 Work with Reno officials to establish an internal control structure that provides for a
    payroll distribution system that reasonably reflects the actual effort employees devote on
    sponsored projects. At a minimum, Reno should take the following corrective actions:
    a.	 Revise its ERS policy and procedures to ensure (1) the manual process for issuing
        Retroactive Effort Reports provide integrated reporting of all employee sponsored and
        other work activities; (2) clear timeliness standards for submission of Faculty
        Overload PAFs; and (3) consistent ERS data capture and reporting dates.
        University of Nevada Reno Comments
        The University has revised procedures to ensure all overload salaries paid are
        integrated into retroactive effort reports for a given term and plans to revise its policy
        to properly reflect the April deadline for the ERS data capture date for the
        Winter/Spring Overload term. The Office of Sponsored Projects is working with
        Department of Human Resources to evaluate policy changes to establish submission
        deadlines for Faculty Overload PAFs.
        Auditor Comments
        Once implemented, Reno’s actions should address our audit recommendation.

    b.	 Continue efforts, as funding becomes available, to undertake planned efforts to update
        the University's grants management systems to effectively and efficiently address the
        current compatibility issues between the new ERS and existing systems.
        University of Nevada Reno Comments
        The University is exploring the implementation of a grants management system.
        Auditor Comments
        Reno’s actions should address our audit recommendation if a new grants management
        system is identified and implemented that is compatible with ERS. If Reno does not
        implement a new grants management system, then it must still resolve the
        compatibility issue between ERS and its current grant management system.
    c.	 Establish policy on NSF’s two-ninths rule which limits all faculty salary from all
        NSF-funded grants. Such policy should include clear assignment of responsibility for
        monitoring University compliance.
        University of Nevada Reno Comments
       The University is establishing policy and procedures to facilitate compliance
       with NSF’s 2-months rule on faculty compensation.
        Auditor Comments
        Once implemented, Reno’s actions should address our audit recommendation.




                                              14
 
d.	 Improve OSP monitoring and oversight of labor cost transfers to ensure compliance
    with University cost transfer policies and procedures by (1) assigning clear OSP
    responsibility for ensuring that justifications for labor cost transfers are adequate and
    rejecting transfers not meeting all Reno cost transfer criteria and (2) requiring
    increased management review and approval for labor cost transfers occurring within
    the last 45 days of a federal grant by the Chair and Dean.
   University of Nevada Reno Comments
   The University is currently modifying the cost transfer policy and cost transfer
   explanation form to require that untimely transfers must be approved by the Chair and
   Dean. Also, the revised policy will include examples of acceptable justifications and
   add OSP responsibility for evaluating cost tranfers.
   Auditor Comments
   Once implemented, Reno’s actions should address our audit recommendation.

e.	 Establish policy and procedures to ensure that graduate tuition costs and fees charged
    to federal sponsored grants are consistent with the associated level of effort actually
    devoted to the projects.
   University of Nevada Reno Comments
   The University is establishing policy and procedures to ensure that graduate tuition
   costs and fees charged to federal sponsored grants are consistent with the associated
   level of effort devoted to the projects.
   Auditor Comments
   Once implemented, Reno’s actions should address our audit recommendation.

f.	 Establish policy for an independent evaluation of the effort reporting system required
    periodically to ensure its effectiveness and full compliance with federal, NSF, and
    University standards. Such a requirement should identify the specific organization
    responsible for performing the evaluation and how often such an evaluation should be
    conducted.
   University of Nevada Reno Comments
   The University Campus Audit Department has committed to conduct an independent
   evaluation (audit) to assess the effectiveness and compliance of the Effort Reporting
   System to ensure compliance with all federal, NSF, and Reno standards on a three-
   year cycle.
   Auditor Comments
   Once implemented, Reno’s actions should address our audit recommendation.




                                         15
 
1.2 Work with Reno officials to (a) ensure a formal mandatory grants management training
    program is established that requires all campus personnel with effort reporting
    responsibilities to be periodically trained and (b) assign specific responsibility to a senior
    management official, such as the department chair or college dean, to ensure that
    personnel receive the appropriate training as required by University policy. Such a
    grants management training program should include discussion of effort reporting, cost
    transfers, proper charging of graduate tuition costs and fees, and unallowable federal grant
    costs.
    University of Nevada Reno Comments
    The University is establishing a policy regarding a formal research compliance 

    training program. 

    Auditor Comments
    Once implemented, Reno’s actions should address our audit recommendation if it
    includes both a required training component for persons with effort reporting
    responsibilities and assigns oversight responsibilities to senior management officials.

1.3 Resolve the $54,154 in total questioned costs for improper salary charges and tuition costs
    to NSF grants, consisting of $37,260 in direct costs and $16,894 in associated fringe and
    indirect costs.                                       

    University of Nevada Reno Comments
    The University will work with the NSF to resolve the $54,741 in questioned costs.
    However, Reno believes that additional discussion is warranted regarding the
    interpretation of the two-ninths faculty salary policy as it relates to the two
    individuals cited in the audit.
    Auditor Comments
    Reno’s actions should address our audit recommendation once the questioned costs have
    been reimbursed to NSF or NSF determines the costs to be allowable.




                                              16
 
         Finding 2 - ERS Accountability Required for Uncompensated Faculty Labor Effort

         An OMB Clarification Memorandum 7 provides guidance for reporting cost sharing
commitments for faculty and/or senior researcher effort on sponsored projects. Committed cost
sharing (including voluntary committed cost sharing) is effort not required by the federal sponsor,
but proposed in the sponsored project narrative and/or budget with no corresponding funding
requested or awarded. Cost sharing commitments can also be created by replacing funded
researcher effort with cost shared effort. For example, committed cost sharing would result where
a faculty member or senior researcher’s salary is funded at 20 percent in the proposal budget and
subsequently only 5 percent salary is charged to the project. The “uncharged effort” of 15 percent
would represent “committed cost sharing” and must be accounted for and reported in the grantee’s
labor effort reporting system. If the University does not document that such committed PI effort
was actually provided, then federal regulations require the institution to obtain prior sponsoring
agency approval when there is more than a 25 percent reduction in PI time devoted to a grant. 8 In
addition, when sponsored projects do not include any paid faculty or senior researcher labor
effort, the OMB Clarification Memorandum requires an estimated amount to be computed and
included in the university’s organized research base 9 used for computing its federal indirect cost
rate.

        Consistent with the OMB Clarification Memorandum, our review of eight faculty
members included in our 30 sampled employees determined that Reno did not appropriately
report committed cost sharing when NSF-funded PI effort on grants was replaced with cost shared
effort. Specifically, one of the eight faculty members reviewed charged $20,360 less salary to
NSF grants than included in the award budget proposals and approved by NSF (see Appendix B).
Such “uncharged PI labor effort” represented voluntary committed cost sharing and must be
properly accounted for in Reno’s labor effort reporting system. The unreported amount of such
committed cost sharing represented about 16 percent of the total FY 2008 salaries of $126,263
charged by the eight faculty members to NSF grants.

       The following example illustrates where Reno did not properly report committed cost
sharing of PI effort on NSF grants as required by the OMB Clarification Memorandum:

              	 A PI had four active sponsored projects during FY 2008, two of which were new NSF
                 grants awarded in the fall 2007. In the proposal budget for each of these two grants,
                 the PI had committed to work two academic year (AY) months and one-half summer

                                                            
7
      OMB Memorandum M-01-06, dated January 5, 2001, Clarification of OMB A-21 Treatment of Voluntary
Uncommitted Cost Sharing and Tuition Remission.
8
         Paragraph .25(c)(3) of OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations, requires prior
Federal agency approval for “The absence for more than three months, or a 25 percent reduction in time devoted to
the project, by the approved project director or principal investigator.”
9
          The organized research base is used as the denominator for computing the federal indirect cost rate applied
to all sponsored projects. As such, a smaller organized research base will result in a higher indirect cost rate, thereby
allowing the institution to recoup a greater portion of its indirect costs on federal grants.



                                                               17
 
                      month during the first year. However, Reno denied the PI’s request for release time to
                      work on the NSF grants during the academic year. Further, because the PI’s overload
                      salary for non-contract days was already being funded from other sponsors, the
                      individual charged $20,360 less to the two NSF grants for the first year than the
                      committed effort in the grant proposals. During the interview, the PI acknowledged
                      that he had worked on both NSF grants during the academic year. Therefore, the
                      “uncharged PI effort” of $20,360 should have been reported as voluntary committed
                      cost sharing on the faculty member’s AY semester effort report.

        Without accurate reporting of committed cost sharing of PI effort, Reno is unable to
validate to NSF that the PI provided the level of effort explicitly committed in the four grant
proposals to accomplish project objectives. NSF expected these faculty members to provide the
amount of effort that the individuals have agreed to contribute in their original grant proposals. It
is important for the federal government to be able to validate that a sufficient level of PI effort
was committed to a sponsored project that is commensurate with the complexity and nature of the
research and dollar amount of grant funding. As such, accurate labor effort reports are essential to
document both direct federally-funded and voluntary committed effort devoted to sponsored
projects by faculty members.

        Furthermore, contrary to the OMB Clarification Memorandum, Reno did not have an
established methodology for imputing an amount for donated PI effort to sponsored projects to
include in the organized research base when sponsored projects do not include any paid faculty or
senior researcher salaries. According to OSP officials, the indirect cost rate proposal, submitted
to the Department of Health and Human Services 10 in 2009, did not include an imputed amount
for such donated PI effort.

        Inaccurate reporting of committed cost sharing of PI effort may result in NSF and other
federal sponsoring agencies potentially assuming a disproportionate share of Reno’s indirect
costs. Specifically, when such amounts are not accurately quantified and included in the
organized research base, the indirect cost rate charged to federal grants would be higher because
the rate is computed by dividing the University’s total indirect costs by the organized research
base. The improper exclusion of such costs from the base results in a higher negotiated indirect
cost rate, thereby resulting in greater indirect costs paid by the federal government.

         These weaknesses occurred because Reno’s policy for cost sharing on sponsored projects
did not provide guidance on how to address situations when federally funded PI effort on
sponsored grants was replaced with cost shared effort. Specifically, it did not establish
procedures addressing how PI effort should be documented in its labor effort reporting system
when faculty members originally committed a certain amount of effort in their grant proposal
submission, but subsequently decided only to charge partial or no salary directly to the sponsored
projects. However, NSF and other sponsoring agencies have an expectation that the PIs will
fulfill such effort commitments necessary to accomplish the projects’ research objectives. If the
University cannot document that such committed PI effort was actually provided, then federal

                                                            
10
         The Department of Health and Human Services (DHHS) is Reno’s cognizant federal audit agency and
responsible for negotiating the federal indirect cost rate plan for the University.


                                                               18
 
regulations require Reno to obtain sponsoring agency approval in advance when there is more
than a 25 percent reduction in PI time devoted to the grant.
 
Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the Director
of the Division of Institution and Award Support, coordinate with the cognizant audit agency, as
needed, to ensure that Reno establishes formal policy and institutional processes to provide for:

2.1 	   Tracking and reporting of cost sharing commitments created by replacing funded PI effort
        on sponsored projects with cost shared effort.

        University of Nevada Reno Comments
        The University is establishing a policy that will require that all quantifiable committed
        effort is either direct charged to the sponsor or is considered cost share.
        Auditor Comments
        Once implemented, Reno’s actions should address our audit recommendation.


2.2 	   Estimating the amount of faculty effort to include in the organized research base for
        federally-sponsored projects without some level of committed faculty effort. Ensure the
        methodology for calculating the estimated amount is supported by adequate
        documentation.

        University of Nevada Reno Comments
        The University will work to determine an applicable amount for unquantifiable faculty or
        senior researcher effort to be included in the organized research rate in its next indirect cost
        rate proposal. Reno plans to research methodologies used at peer institutions to determine
        an appropriate calculation method.
        Auditor Comments
        Once implemented, Reno’s actions should address our audit recommendation.




                                                   19
 
3. Other Audit Matters:

Certification of Effort Report Are Timely

        Although federal regulations do not specify when labor effort reports should be reviewed
and certified, Reno has established timeframes for review and approval to ensure a timely
certification process. From the time the web-based effort reports are available for
pre-review, University employees have 30 days to complete the online certification. Of the 77
effort reports reviewed for the 30 sampled employees, 88 percent were certified in a timely
manner. Of the nine late ERS certifications, one-third were only one day late and all but two
were late by 10 days or less. The rate of Reno compliance with its timeliness standards is
commendable and it should remain a University goal to achieve full compliance. We credit the
overall timeliness of effort certification to Reno’s strong follow-up policies and procedures.
Specifically, a faculty member is placed on an OSP suspension list if effort reports on sponsored
research projects are delinquent. This occurs after the issuance of two reminder notices to follow-
up on the late effort reports using an increasingly graduated scale to higher level management
officials. The faculty members on the OSP suspension list are ineligible for all OSP services
including proposal preparation, account set-up, and budget revisions. After the third and final
delinquent notice, OSP will request the PI’s Dean or Director to provide an account to which the
uncertified payroll charges on the sponsored accounts can be moved. Such stringent Reno
processes result in timely certification of labor effort reports.


Management of Reno Conflict of Interest Process Could Be Improved

         University Policy on Conflicts of Interest places responsibility on each employee to
disclose individual conflicts of interest. Accordingly, all Faculty and Key Personnel are required
to file an Annual Summary of Outside Activities and Financial Interest Form to report any
significant financial interest 11 that may pose a potential conflict of interest. However, the audit
noted that Reno’s internal control processes were not always sufficient to ensure risks were
minimized in achieving the University’s goals and objectives for full accountability and
mitigation of potential employee conflicts of interest. Specifically, the audit identified a PI who
held an ownership interest in a private enterprise that was not properly reviewed by Reno’s
Conflict of Interest Committee. As such, any potential conflicts of interest that may have existed
were not properly managed and monitored as required by the University’s own policy and
procedures.


        




                                                            
11
         Reno policy defines significant financial interest as employee ownership “of 5 percent of more of the capital
stock, assets, or control of any business entity. . .”


                                                               20
 
                                                                                                                               Appendix A

                                         Schedule of FY 2008 Questioned Salaries and Wages

                                 Faculty Salary Charges Exceed NSF's Two-Ninth Rule
                                                                                  Fringe
                      Sample            NSF Grant                                 Benefit
                        ID               Number                Salary Costs        Costs              Indirect Costs       Total Costs
                         8               See Note 12                 $8,367           $264                    $3,452          $12,083
                        23               See Note 13               $19,425            $612                    $8,015          $28,052

                                           Subtotal                $27,792                 $875             $11,467           $40,134

                                       Employee Cost Transfers Inadequately Justified
                                                                                  Fringe
                      Sample            NSF Grant                                 Benefit
                        ID               Number                Salary Costs        Costs              Indirect Costs       Total Costs
                        19                                           $2,025           $277                      $921            $3,223
                        19                                           $1,350           $183                      $613            $2,146
                        25                                            $875            $154                      $412            $1,441

                                           Subtotal                    $4,250              $615                 $1,946         $6,810

                        Employee Effort Does Not Directly Benefit Research Project
                                                                                  Fringe
                      Sample            NSF Grant                                 Benefit
                        ID               Number                Salary Costs        Costs              Indirect Costs       Total Costs
                        24                                           $3,750           $351                    $1,640            $5,741

                      Subtotal -
                      Questioned Salary
                      Costs                                        $35,792             $1,841               $15,053           $52,686

                        Graduate Student Tuition Remission Costs Improperly Allocated
                                                                                  Fringe
                      Sample            NSF Grant                Tuition          Benefit
                        ID               Number                   Costs            Costs              Indirect Costs       Total Costs
                         1                                          $1,016                                                      $1,016
                        10                                            $452                                                      $ 452

                                           Subtotal                    $1,468                                                  $1,468

                      TOTAL
                      QUESTIONED
                      COSTS                                        $37,260             $1,841               $15,053           $54,154
                                                            
12
     NSF grant numbers 0721542 and 0721600, and NSF pass-through grant 0627039/A11754
13
     NSF grant number 0721399, and 2 NSF pass-through grants 9701471 and P074-06-803


                                                                                21
 
                                                                              Appendix B

  Schedule of FY 2008 Faculty Uncompensated Effort Not Properly Reported


                                         PI Effort
                                       Commitment
          NSF                         per NSF Grant         NSF
Sample   Award                          Proposal           Wages       Uncharged
Number   Number    Award Period          Budget           Charged       PI Effort


  8               09/01/07-08/31/08          $23,611.00   $11,548.90   $12,062.10
  8               10/01/07-09/30/08          $23,611.00   $15,312.68    $8,298.32

                       TOTAL                 $47,222.00   $26,861.58   $20,360.42




                                      22
 
                                                             Appendix C

University of Nevada Reno’s Response to Draft Audit Report




                        23 
                          
                                                                                             Appendix C

           University of Nevada Reno’s Response to Draft Audit Report




University of Nevada Reno Response:

         The University is rnising the policy to reneet the April deadline for the
         [RS data capture dates for the WinterlSpring Overioad term. The Office
         of Sponsored Projects is working with Department of Duman Resources
         to evaluate policy changes to establish submission deadlines for Faculty
         Overload PAl's. The University has revised its procedures to ensure that
         retroact.ive elTort reports a re integrated to show all overload salary paid
         in a given effort reporting term.
      b. Continue efforts, as funding becomes available, to undertake planned efforts
         to update the University's grants management systems to effectively and
         efficiently address the current compatibility issues between the new ERS and
         existing systems.

         University or Nevada Reno Response!
         The University is esploring the implemenlation of a grants management
         system.
      c. Establish policy on NSF 's two-ninths rule which limits all faculty salary from
         all NSF-funded grants. Such policy should include clear assignment of
         responsibility for monitoring University compliance.

         University of Nevada Reno Response:
         T he University is esta blishing policy and procedures to facilitate
         compliance with NSF's 2 months rule on faculty compensation.
      d. Improve asp monitoring and oversight of labor cost transfers to ensure
         compliance with University cost transfer policies arK! procedures by (I)
         assigning clear OSP responsibility for ensuring that justifications for labor
         cost transfers are adequate and rejecting transfers not meeting all Reno cost
         transfer criteria and (2) requiring increased management review and approval
         for labor cost transfers ocCllrring within the last 45 days of a federal grant by
         the chair and dean.

         University of Nevada Reno Response!
         The University is currently modifying the cost transfer policy and t:ost
         transfer uplanation rorm to require that untimely transfers must be
         approved by the t:hair and dean. Esamples of act:eptable justifications
         and OSP mponsibility for evaluating cost transfers will be added to the
         cost transfer policy.

      e. Establish policy and procedures to ensure that graduate tuition costs and fees
         charged to federal sponsored grants are consistent with the associated level of
         efron devoted to the projects.

         University of Nevada Reno Response:




                                               24 
                                                                                                 Appendix C

       University of Nevada Reno’s Response to Draft Audit Report




      The University is establishing policy and proceduns
                                                  procedurt.$ to ensure that
      graduate tuition costs and rea charged to rederal
                                                   redersl sponsored grants are
      consistent with the associated level or effort devoted to the projecl5.
                                                                    projects.

 f.    Establish policy for an independent evaluation of the effort reporting system
       required periodically to ensure its effecti ve ness and full compliance with
                                           effectiveness
       federal, NSF, and University standards. Such a require      ment should identify
                                                           requirement
       the specific organization responsible for performing the evaluation and how
       oAen
       often such
             such an evaluation should be conducted.

      University of Nevada Reno Response:

      The university Campus Audit Department has committed to conduct an
      independent evaluation (audit) to assess the effectiveness and compliance
      orlhe
      or 'he ElTort Reporting System consistent
                                     consisten. with all rederal,
                                                          redenl, NSJ.'.
                                                                  NSf." and
      university standanls. This audit will be conducted on a three year cycle.

2.    Work with Reno officials
                          offi cials to (a) ensure a formal mandatory grants
                     trai ning program is established that
      management training                                   thai requires all campus
      personnel with effort reporting       responsibi lities to be periodically trained and
                                reporti ng responsibilities
      (b) assign specifi
                 specificc responsibility to a senior management official, such as the
      depart ment chair or college dean, to ensure that personnel recei
      depanment                                                                 ve the
                                                                          receive
      appropriate training as required by University policy. Such a grants
      ma nagement training program should include discussion of
      management                                                            effort reporti
                                                                         ofeffon   reporting,
                                                                                           ng,
      cost transfers,
           transfers. proper charging of graduate tuition costs and fees, and
      unallowable federal grant costs.

      University or Nevada Reno Response:

      The University is establishing a policy regarding a rormal
                                                          rorma' resean:h
      compliance training program.

3.    Resolve the $54,741 in total questioned costs forimproper
                                                     for improper salary charges and
      tuition costs to NSF grants, consisting of$37.26O
                                               of$37.260 in direct costs and $ 17,48
                                                                               17,4811
      in associated fringe and indirect costs.

                 of Nevada Reno Response:
      University of

      The Un
           University
              iversity will work with the NSF Division orGrants
                                                          or Grants and
      Agreements to resolve the $54,741 in questioned costs.
                                                           COSIS, However, we
      believe that
              thai additional discussion is warra
                                             warranted
                                                   nled regarding the
      interpretation or 219ths policy as it relates to the two individuals cited in
      the audit.
      Propoul Guidance
      Proposal

      The guidance regarding proposed budgets to NSF during the audit period
      is stated as rollows in the Gnmts
                                  Grants Proposal Guide 081 (effective Juual")'
                                                                       January 5,
      2008):




                                                25 
                                                                                                         Appendix C

 University of Nevada Reno’s Response to Draft Audit Report




    SumlMr .. la'1 I'IIr ra<;:ully m~mb<:n.1 roI~J . nd univenltiel on lcalkmic_year
    . ppoinl""'nl'lt limiled 10 ItO "",re Ib.D 1..·..."IDlh. or lbtlr I"'ItI'I.. uade llllc-yelr
    ullry. Thl ' limit includes ,ummcr III ..)' ~i\"etl from.U NSF·fuDIkd InJllS.



In the use orthe employee with sample lD 23, he elceeded the
requirement when considering his proposed summer salary on all NSF
grants. This is due in part to a n()-(ost-edension on one project Ibat was
originally supposed to end before the start of the third proj~t. The
proposed summer salary on the individual proposals is compliant with
the requirement.
In the case of the employee with sample rn 8, he e:Jc«.ded tbe limit by
hair a month with regards to his proposed effort on all NSF grants.
However eacb individual proposal was compliant with stated regulations.
Employee 8, believed Ihat NSF was aware of the totality of support
b«ause aUlhree awards ClIme from the NSF Division Computer and
Network Systems.
The revised guidance in the current GPG 0929. eff«tive April 2009 is
much clearer about the University's obligation to identify in the budget:
justification that if the proposal is awarded in conjunction with other
NSF supportlhe lnvestigator's lotal support will eueed the 2 month
limit. However, during the audit period, it was unclear what steps the
University needed to take to appropriately address the limit for each
Investigator for all of their respKtive NSF funded grants.
Award Management Guidance
The award management guidance that was applicable during the audil
period was in the Award and Administration Guide 08·1 , effective
January 2008.
There are two pertinent seclions Ihat the University used to guide our
handling the awards where employees 8 and 23 where serving as
Principal Investigators.

   Cha nge ID PenoD-MoDlh' D..wled 10 IIx Project: Irthe PIIPDor ~Pllro-PD orIU lk~oU !ublt.DUally
   ~s lime I.. IIx projed IbD 'Dlicipated in Ihc pro""".~ (1k11Dcd ill the NSF Gnnl C,,"ditiOD' (GC· I)
   as a """ucllon Df25% or!DOre In II"",) bclshc s hould C6n,ull"';lh appropriate nrncillil6ftb~ ~ ... nttt
   ol'lMniulion aDd ..·lIh the NSF Progn lll Omcer.       M




   Prinr Approval: NSF has ....,,·eeI molt cost ""aled and admlni'll ... th·c prinr a ppro""l.
   n:qulred by OMS QrtIIlar A-21 .nd 2 CM §215. Gnn",", should rer~r ID thegem-nl
   condltioD' referenced in lbe ~nn~.utl liG El.hibil 0_1 [Dr ID~I"1II.tiDon (HI NSF
   requlred priur appro""IL



The questioned costs identified in the 219ths finding ultimately resulted from .n
increase in effort by employees 8 and 23 on their respective awards. Tht'
compensalion paid to employ~! 8 and 23 were consistent with the certified level




                                                 26 
                                                             Appendix C

University of Nevada Reno’s Response to Draft Audit Report




                        27
 
